XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 94612-0550

Public: (510) 879-1300
Telephone: (510) 879-0858
Facsimile: (510) 622-2270
E-Mail: Janill.Richards@doj.ca.gov

March 11, 2020
Via Electronic Filing System and Federal Express
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

O.T.O, LLC v. Ken Kho, et al., No. 19-875
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on January 14, 2020. The Court
requested a response to the petition on February 27, 2020, which is currently due on March 30,
2020. Pursuant to Rule 30.4, respondent Julie A. Su, California Labor Commissioner,
respectfully requests that the time for filing a response be extended by thirty days, up to and
including Wednesday, April 29, 2020. An extension would allow for adequate time for new
counsel of record to become familiar with the case and for internal coordination and review. The
additional time would better enable preparation of a response to the petition, and to the multiple
amicus briefs filed in support, that respondent believes would be most helpful to the Court.
(Respondent Ken Kho has already requested a 30-day extension of time to file a response.)
Respectfully submitted,
/s Janill L. Richards
JANILL L. RICHARDS
Principal Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Kannon K. Shanmugam,Paul, Weiss, Rifkind, Wharton & Garrison LLP
David A. Rosenfeld, Weinberg, Roger & Rosenfeld

